OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/TANZANIA’S
BASIC EDUCATION PROGRAM
AUDIT REPORT NO. 4-621-09-005-P
March 30, 2009




PRETORIA, SOUTH AFRICA
March 30, 2009

MEMORANDUM

TO:                  USAID/Tanzania Mission Director, Robert F. Cunnane

FROM:                Regional Inspector General/Pretoria, Nathan S. Lokos /s/

SUBJECT:             Audit of USAID/Tanzania’s Basic Education Program
                     (Report No. 4-621-09-005-P)

This memorandum transmits our report on the subject audit. In finalizing this report we
considered management comments on the draft report and have included those
comments in their entirety in appendix II.

The report includes ten recommendations to strengthen USAID/Tanzania’s education
activities.  In response to the draft report, the mission agreed with all ten
recommendations and based on the corrective action plans and target completion dates
provided for recommendations 4 through 10.         Therefore, we consider that a
management decision has been reached for each of those recommendations.
Management decisions are pending for recommendations 1 through 3.

Please provide my office written notice within 30 days of any additional information
related to the actions planned or taken to implement recommendations 1 through 3. In
addition, please provide USAID’s Office of Audit, Performance and Compliance Division
(M/CFO/APC) with the necessary documentation demonstrating that final action has
been taken on recommendations 4 through 10 upon completion.

I want to express my sincere appreciation for the cooperation and courtesy extended to
my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

     Some Program Activities Were Not Fully Utilized ....................................................... 5

     Environmental Program Not Consistent
     With Core Education Objective ................................................................................... 8

     Data Quality of Reported Results Needs
     Improvement ............................................................................................................. 10

     Performance Management Plan Needs Updating
     And Outcome-Oriented Indicators............................................................................. 14

     Basis for Targets Not Documented ........................................................................... 17

     Provision for Executive Order on Terrorist Financing Omitted from Subawards....... 19

Evaluation of Management Comments ....................................................................... 21

Appendix I – Scope and Methodology ........................................................................ 23

Appendix II – Management Comments ....................................................................... 25

Appendix III– USAID/Tanzania Education Indicators for FY 2007 and FY 2008 ...... 30
SUMMARY OF RESULTS
The Regional Inspector General in Pretoria conducted this audit to determine if
USAID/Tanzania’s basic education program achieved its intended results and to
ascertain its impact. The program sought to strengthen student performance in English,
math, and sciences among underserved communities, with special emphasis on
increasing educational opportunities for girls. In this manner, the program was expected
to contribute to the U.S. foreign policy goals of security, stability, and prosperity in
Tanzania (see page 2). The audit examined three components of the basic education
program with obligations totaling $5.8 million as of September 30, 2008 (see page 23).

The audit determined that USAID/Tanzania’s basic education program achieved one out
of four intended results for fiscal years 2007 and 2008, as measured by the mission’s
performance indicators. For the remaining three indicators, valid and reliable data were
not available or indicator definitions were incorrectly applied. Consequently, the audit was
not able to conclude whether intended results had been achieved for those three
indicators (see page 4). Despite these data quality and reporting issues, the program did
have a positive impact in a number of areas, including preschool education in Zanzibar,
teacher training, and science camp sponsorship. These achievements expanded
educational opportunities for girls, particularly in Muslim communities (see page 4).

The audit, however, identified a number of areas where the effectiveness of
USAID/Tanzania’s basic education program could be strengthened. Recommendations
include (1) developing a plan to increase the percentage of enrolled students actually
attending interactive radio instruction; (2) developing a plan to address teacher concerns
that hindered program effectiveness (see pages 5–8); (3) determining if the environmental
education activity meets the objectives of the basic education program, and, if not, to
reprogram the remaining unobligated funds for better use (see pages 8–10);
(4) establishing procedures to ensure supervisory review of annual reporting;
(5) developing a schedule of monitoring visits and corresponding data quality checks;
(6) developing procedures to ensure that implementing partners uniformly interpret
performance indicators (see pages 10–14); (7) updating the performance management
plan and revising it to include sufficient outcome-oriented performance indicators (see
pages 14–16); (8) developing procedures to document the basis for establishing targets in
both the performance management plan and the annual performance report in official
activity files (see pages 17–18); (9) developing policies and procedures to ensure that the
required provision concerning the implementation of Executive Order 13224 is included in
all agreements and subawards; and (10) determining whether that required provision is
included in all recipients’ current subawards, and requiring recipients to incorporate the
required provision into any subawards from which it was omitted (see pages 19–20).

In response to the draft report, USAID/Tanzania agreed with all 10 recommendations
and management decisions to have been reached on seven of the recommendations.
USAID/Tanzania has been asked to provide written notice within 30 days regarding any
additional information related to the actions planned or taken to implement the three
recommendations without a management decision (see pages 21–22).

Management comments have been included in their entirety in appendix II.




                                                                                          1
BACKGROUND
Tanzania presents a number of significant challenges for U.S. foreign policy. Because
the country is equally divided between Christians and Muslims, the potential
encroachment of radical Islam requires special attention to preserve Tanzania’s political
stability and beneficial leadership in regional African affairs. Moreover, despite years of
substantial donor assistance, Tanzania remains one of the world’s poorest countries,
ranking 159th out of 177 countries in the 2007/2008 United Nations Human
Development Report. This poverty not only impedes future economic development and
exacts extreme human costs, but also fosters an environment conducive to radicalization
and terrorism. Tanzania’s vulnerability to terrorism was vividly illustrated in the 1998 al-
Qaeda bombing of the U.S. Embassy in Dar es Salaam, which killed 10 persons and
wounded 77.

The USAID basic education program in Tanzania has been designed to promote the
interrelated objectives of prosperity, security, and stability. As part of the United States’
outreach to Muslim communities to forge effective antiterrorism coalitions, education
efforts have been predominantly (though not exclusively) focused on the
semiautonomous islands of Zanzibar—in which 99 percent of the inhabitants are
Muslim—and along the southern coast. These efforts ranged from furnishing training to
Zanzibari secondary school teachers to providing instruction for primary students near
the Mozambican border. In addition, pertinent features of USAID’s education initiatives,
such as school management committees, have strengthened civil society by eliciting
community input and support, while the entire program has helped lay the foundations
for sustainable economic growth.

To help accomplish these objectives, USAID/Tanzania specifically sought to strengthen
primary and secondary student performance in English, math, and sciences, especially
among Muslim and pastoralist populations. Furthermore, the mission intended to
increase girls’ access to education, including preschool; provide specialized training to
teachers; and support informal educators. These activities were conducted by various
implementing partners through a number of cooperative agreements with USAID. For
example, RISE (Radio Instruction to Strengthen Education), a $2.2 million program,
provided interactive radio instruction to preschool and primary learners in remote areas
where formal classrooms do not exist. CREATE (Completion, Retention and Access for
Tanzanians to Education), another major program in the basic education portfolio with
$2.4 million in USAID funding, provided teacher training, sponsored science camps for
girls, and supported preschools in Zanzibar. Roots & Shoots is a $1.9 million USAID-
funded program that promotes environmental education and awareness through teacher
training and projects undertaken by student clubs. The CREATE and RISE programs
have recently been extended through February 2010. 1




1
  As a result of these extensions, the total estimated contract amounts for CREATE and RISE are
$4.5 million and $4.1 million, respectively. The mission is currently developing a new education
strategy that will inform the next phase of activities.


                                                                                              2
AUDIT OBJECTIVE
The Regional Inspector General/Pretoria conducted this audit at USAID/Tanzania as
part of its fiscal year 2009 annual audit plan to answer the following question:

   •   Did USAID/Tanzania’s basic education program achieve its intended results and
       what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




Photograph of exterior improvements made to a primary school in Mtwara in southern Tanzania as
part of a CREATE-sponsored school improvement project. (Regional Inspector General/Pretoria,
November 10, 2008.)




                                                                                            3
AUDIT FINDINGS
The audit determined that USAID/Tanzania’s basic education program achieved one out
of four intended results for fiscal years (FYs) 2007 and 2008, as measured by the
indicators included in the mission’s performance management plan and annual
performance reports. These indicators, along with targeted and actual results, are
detailed in appendix III. 2 For the remaining indicators, either the validity and reliability of
the data could not be confirmed or the indicator definitions were incorrectly applied. As
a result, the audit was unable to determine whether the three remaining intended results
were achieved. Just as important, however, the mission lacked indicators to adequately
measure basic education program outcomes, such as whether student performance was
actually increasing.

Notwithstanding these problems, the audit found that the mission’s basic education
initiatives were making a positive impact on education in Tanzania. Some examples
include the following:

    •   The RISE (Radio Instruction to Strengthen Education) program has increased the
        number of children receiving preschool education on Zanzibar, bringing
        instruction to remote areas and helping the concept of early childhood education
        gain acceptance among the community.
    •   The CREATE (Completion, Retention and Access for Tanzanians to Education)
        program has provided science camp opportunities for girls and various training
        courses for teachers, ranging from using innovative low-cost teaching materials
        to including children with disabilities in regular classroom settings.
    •   The Roots & Shoots program has given students a vehicle for implementing an
        array of environmental projects, resulting in increased leadership skills,
        teamwork, and environmental awareness.
    •   CREATE-sponsored school improvement projects have enhanced learning
        environments.
    •   Mission programs have increased educational opportunities for girls, especially in
        predominantly Muslim areas.

Even though the mission has made positive contributions, the results could be
strengthened if program activities were fully utilized. In addition, education funds
potentially could be reprogrammed to be better aligned with the mission’s core program
objectives. Finally, the mission’s performance management plan could be more useful if
it contained indicators that measured program outcomes, were updated in a timely
manner, and had a documented basis for selecting indicator targets. These issues are
discussed in the following sections.




2
  As shown in appendix III, the mission used five indicators. The audit examined four of the five
indicators.


                                                                                                    4
Some Program Activities
Were Not Fully Utilized

Summary: Achieving intended results requires that program resources be used
effectively. However, significant problems in student attendance and the utilization of
teacher training were noted during site visits. These were caused by a lack of adequate
facilities and teacher cooperation. As a result, program effectiveness was hindered.

The Government Performance and Results Act of 1993 was part of a broad effort to
“reinvent Government” by focusing on the ultimate outcomes of Federal programs. For
those programs to achieve their intended outcomes, program resources must be utilized
effectively. In the context of the basic education program this means, at a minimum, that
students should attend USAID-sponsored lessons and teachers should make full use of
USAID-funded training. Nevertheless, the audit found significant problems with student
attendance in the RISE program during inclement weather, as well as evidence that
some training provided by the CREATE program was not being used to the maximum
extent possible. In addition, a lack of cooperation from some government teachers
hindered the effectiveness of both USAID programs. These issues are discussed in
further detail below.

RISE Program Attendance During Inclement Weather Needs Improvement –
Zanzibar averages 71 days of rain annually, with a rainy season that can last from March
through May. Since the school year typically includes long breaks in June and July,
prolonged drops in attendance during inclement weather may result in many students
missing instruction for extended periods. 3 This was demonstrated when the audit team
visited nine RISE instructional sites over 2 days of inclement weather, which included
periods of sustained heavy rain, on the main Zanzibari islands of Unguja and Pemba.
Eight of these sites were informal settings for preschool and early primary learners.
These settings ranged from a room in the instructor’s house to the participants simply
sitting underneath a tree. According to a RISE official, approximately 45 percent of
these informal sites normally met outside. The ninth site was at a formal government
school where the RISE radio lessons supplemented formal classroom instruction. 4

During site visits, the audit team found significant problems with student attendance, with
three sites not even holding class, and a total attendance across all sites of only 14
percent of the number of students enrolled. The information from the sites visited during
inclement weather is detailed in table 1.




3
  To address the issue of inclement weather, RISE’s policy was to assist the community in
designating alternate sites during the mobilization process that preceded the establishment of an
informal RISE club.
4
  As of September 30, 2008, there were 126 “Play & Learn” informal RISE sites in Zanzibar.
There were also 61 formal RISE classes located in 24 government schools, also in Zanzibar.


                                                                                                5
                 Table 1 RISE Site Visits During Inclement Weather
                                    Attendance                 Percentage   Normally
     School                 Type     Observed     Enrollment   Attendance   Outside?

     Kikunguni Mash. PP        IF              4           21         19%      Yes
     Kaliwa PP                 IF              9           20         45%      Yes
     Kikunguni Magh. PP        IF             15           30         50%      No
     Muodini PP                IF             13           21         62%      No
     Kigamboni                 IF              0           23          0%      No
     Mbuzini                   IF              3           26         12%      Yes
     Kirimdomo                 IF             16           30         53%      No
     Mbuyu popo                IF              0           13          0%      Yes
     Potoa Primary              F              0         248           0%      No
    Type: IF = informal, F = formal. Enrollment figures per discussions with mentors or
    teachers and review of pertinent records.

For the eight informal sites, the audit team found a significant difference in attendance
between classes that normally met in a fixed structure and those that normally met
outside. For the classes that normally met indoors, 44 students out of an enrollment of
104, or 42 percent, were observed in attendance. Conversely, only 16 out of 80
students, or 20 percent, were observed attending classes that normally met outside.
The situation at the formal government school was a special case and will be discussed
in the next section.




   Photograph of students listening to a RISE radio lesson on the island of Unguja.
   According to the mentor (shown in purple), 26 students were enrolled in this class.
   (Regional Inspector General/Pretoria, November 5, 2008.)


                                                                                          6
RISE, USAID, and local government officials all acknowledged that attendance in
inclement weather was a problem. According to a USAID official, RISE worked with
communities to identify covered spaces for some instructional sites and has already
relocated others. RISE mentors have also encouraged parents to send their children to
school in the rainy season, safety permitting. However, neither the RISE performance
management plan (PMP) nor the mission’s PMP for the entire basic education program
contained indicators that measured student attendance or set attendance goals. Without
such goals and a means of tracking progress toward their achievement, the mission’s
ability to adequately monitor performance and recommend corrective action is hindered.

Finally, a RISE official noted that there were “huge infrastructure issues” afflicting early
childhood education on Zanzibar, adding that there was no capacity to house preschool
students at government primary schools. To its credit, RISE began to investigate the
feasibility of using public-private partnerships to help alleviate the lack of facilities, but
found that it did not have the staff or financial mechanisms in place to accept
responsibility for construction and donations. Further efforts to obtain guidance from
USAID were suspended as the program was nearing completion.

Lack of Teacher Cooperation Hindered Program Effectiveness – Audit team site
visits also found evidence that a lack of teacher cooperation was undermining the
effectiveness of portions of both the RISE and CREATE programs. At the formal
government school on Unguja, for example, teachers dismissed four RISE classes with
a combined enrollment of 248 students because of what the teachers claimed was a
classroom rendered unusable by rain. Although the audit team noted a small hole in the
classroom roof, in the team’s opinion it was not large enough to warrant dismissal of the
classes.

Conversations with two of the teachers responsible for these classes, however, revealed
a number of grievances that provided a more plausible explanation for the students’
dismissal. While the teachers were generally satisfied with the quality of the RISE
lessons, they indicated that their RISE responsibilities exacerbated an already heavy
workload caused by a shortage of teachers. These teachers noted that they had
responsibilities for other classes at the same time that the RISE lessons were broadcast.
More revealingly, the teachers also raised the issue of the lack of additional
compensation for this increased workload. While RISE pays an allowance to mentors at
its informal clubs, it does not pay one to the teachers in the formal government schools,
since the teachers are government employees.

Given this situation on Unguja, the audit team expanded its audit procedures to visit a
RISE instructional site at a government school on Pemba. The weather was clear and
dry on the day of the visit. Both the preschool and primary RISE classes were fully
attended.

Meanwhile, in the Mtwara region of southern Tanzania, a CREATE official reported
similar concerns from teachers that impeded program effectiveness. According to this
official, only about one-quarter of the participants in a course on the construction of low-
cost teaching materials were actually using their training. As on Zanzibar, teachers cited
heavy workloads and large class sizes as reasons why they lacked time to construct
teaching materials. When CREATE suggested that teachers use their leisure time, a
number of teachers protested that they did not receive any additional compensation for
weekend work.


                                                                                            7
According to a USAID official, the mission was aware of these teacher complaints.
However, compensation of government teachers is the responsibility of the Tanzania
and Zanzibar ministries of education, and any USAID action would require close
coordination to avoid negative effects. For example, direct payments by RISE to
government teachers could create tension between RISE and non-RISE schools.
According to RISE, the government is attempting to formalize payments to RISE
mentors so that all future payments to mentors and teachers alike would be made by the
government.

Conclusion – Given the attendance problems noted at the sites visited, program
resources are not being used to the maximum extent, while program effectiveness in
meeting intended outcomes is likely impeded. Similarly, the failure to fully use USAID-
funded training causes the same potential effects. Consequently, this audit makes the
following recommendations:

   Recommendation No. 1: We recommend that USAID/Tanzania develop a plan,
   with milestones, targets, and tracking mechanisms, to (a) reduce the proportion
   of interactive radio instruction sites that normally meet outside; and (b) increase
   the percentage of enrolled students attending interactive radio instruction.

   Recommendation No. 2: We recommend that USAID/Tanzania, in coordination
   with the appropriate government authorities, develop a plan to address the
   issues raised by government teachers that hinder the utilization of basic
   education program resources.

Environmental Program
Not Consistent With Core
Education Objective

Summary: USAID/Tanzania’s basic education program aimed to improve student
performance in English, math, and sciences. However, one activity within the basic
education program was not fully aligned with this aim, focusing instead on
environmental activism in its student clubs and teacher training. This activity originated
as an unsolicited proposal to support Tanzanian policy on environmental education and
continued despite various opinions regarding its relation to basic education. As a
result, scarce funds might not have been put to the best use in furthering basic
education in Tanzania.

Major U.S. interests in Tanzania, such as democratization, economic liberalism, and
counterterrorism, are all advanced by an educated Tanzanian citizenry. To support
these interests, the USAID/Tanzania basic education program seeks to strengthen
primary and secondary education performance in English, mathematics, and sciences,
especially among Muslim and pastoralist populations. This core objective of the basic
education program was expressed in the mission’s FY2007 and FY2008 operating
plans, as well as its performance management plan.

One prominent program in the basic education portfolio, however, was not well aligned
with this core objective. The Roots & Shoots environmental education program focused
significantly on environmental projects such as tree planting and trash pickup. These



                                                                                         8
projects were conducted through Roots & Shoots student clubs located at primary
schools on Zanzibar and along the mainland coast. Although the student clubs and
associated environmental education training for teachers yielded some classroom
benefits, the activities did not have the sustained focus on natural science called for in
the mission’s planning documents.

For example, Roots & Shoots officials specifically stated that the program was about
environmental education and not “environmental science.” According to these officials,
environmental education was oriented toward activism by changing people’s behavior
and then putting those changes into action, whereas environmental science was
described as dealing with the “chemistry of trees” and other relevant topics in natural
science. Several teachers who attended Roots & Shoots environmental education
training confirmed this description. For example, one teacher stated that during his
training he learned how to “conserve the environment,” which included activities such as
starting tree nurseries and planting mangroves. Another teacher said that the main
impact of her training had been a new awareness of the importance of planting trees and
solid waste management.

USAID/Tanzania’s sponsorship of Roots & Shoots originated as an unsolicited proposal
to support the Tanzanian Government’s policy of including environmental education in
the classroom. Nonetheless, a USAID education advisor from Washington questioned
the focus of the Roots & Shoots program and how it related to increasing the quality of
basic education. Although another USAID/Washington official claimed that the Roots &
Shoots program was a “valuable contributor” to quality education, USAID/Tanzania
officials themselves questioned its focus at a recent portfolio review.

The germane question is not whether Roots & Shoots is a good program, but rather
whether Roots & Shoots is the most effective method of strengthening primary and
secondary education performance. There may be better ways of programming Roots &
Shoots’ remaining funds totaling $1,225,716 to further basic education in Tanzania than
teaching environmental activism, especially in a country with an adult illiteracy rate of
more than 30 percent and a shortage of both schools and teachers. 5 For example,
USAID recently completed a successful and well-received project in which numerous
science textbooks were distributed to secondary students on Zanzibar. 6 However,
according to officials from both USAID and the Zanzibar Ministry of Education and
Vocational Training, there is an acute lack of laboratory equipment and facilities to build
upon the textbook initiative. Addressing this need would be an example of an activity
that could be better aligned with the core objectives of the basic education program
while also fulfilling education’s complementary role in advancing major U.S. interests in
Tanzania. Accordingly, this audit makes the following recommendation:




5
  The total estimated amount of the Roots & Shoots agreement is $1,881,000. As of December
31, 2008, $655,284 had been accrued or expended, leaving remaining funds of $1,225,716.
6
  The Textbook and Learning Materials Program was administered from USAID/Washington as
part of the Africa Education Initiative and was not part of this audit.


                                                                                             9
    Recommendation No. 3: We recommend that USAID/Tanzania determine
    whether the Roots & Shoots environmental education program meets the core
    objectives of the basic education program, and, if not, reprogram the
    unexpended balance of $1,225,716 in a way that better aligns with the program’s
    objectives.

Data Quality of Reported Results
Needs Improvement

Summary: Contrary to USAID guidance, reported results were not always accurate or
reliable. This was due to several reasons, including a lack of supervisory review,
insufficient monitoring of data quality during site visits, and imprecise indicator
definitions. Unreliable data inhibit performance management and impair the accuracy of
the Agency’s external reporting.

USAID’s results-oriented management approach relies on its managers to consider
performance information when making their decisions. Sound decisions require
accurate, current, and reliable information, and the benefits of USAID’s results-oriented
approach depend substantially on the quality of the performance information available. 7

Despite these provisions, the audit found several areas where data quality and reporting
could be strengthened significantly. The following sections discuss these issues in
greater detail. Appendix III contains the mission’s basic education indicators, targets,
and reported results for FY 2007 and FY 2008.

Data Quality and Reporting Issues – Roots & Shoots: In its FY 2007 annual
performance report, the mission included 25,300 students under the indicator “number of
learners enrolled in USG [U.S. Government]-supported primary schools or equivalent
non-school settings” attributable to the Roots & Shoots environmental education
program. This number corresponded to the figures provided by Roots & Shoots, and
represented 51 percent of the total number of learners reported for this indicator. Upon
inquiry, however, the Roots & Shoots program manager acknowledged that the 25,300
students represented the program’s targeted results and not its actual FY 2007 results.
Moreover, the official could not indicate what the actual FY 2007 results were. When
asked why Roots & Shoots provided targeted and not actual results, the official stated
that she did not receive training on how to provide the data.

Furthermore, the 25,300 students were evenly divided into 12,650 students from primary
schools and 12,650 from madrassas. 8 The madrassa students, however, were
preprimary pupils. For FY 2008, the mission reported those students in the preprimary
schools indicator, whereas in FY 2007 they were included in the primary schools
indicator. As a result, comparability between FY 2007 and FY 2008 for those two
indicators is impaired.

CREATE:     Under the indicator “number of learners enrolled in USG-supported
secondary schools,” the mission included 97,284 students attributable to the CREATE

7
 USAID’s Guidelines for Indicator and Data Quality (TIPS No. 12).
8
 For purposes of this report, a madrassa is a community preschool that offers both Koranic and
early childhood instruction. Madrassas serve preprimary students.


                                                                                             10
program in its FY 2007 annual performance report. This figure comprised 99 percent of
the reported indicator value. The audit found, however, that this figure was significantly
overstated. According to a CREATE official, the reported figure of 97,284 students
included some primary students who were also counted in the primary schools indicator.
This double counting occurred because a number of schools on Zanzibar housed both
primary and secondary students and no distinction was made between the two
categories when counting enrollment for performance reporting purposes.

It is not known exactly how many secondary students were actually enrolled at
September 30, 2007. However, 26,086 secondary students were enrolled as of
December 31, 2007. 9 Assuming that an equal or similar number of secondary students
were actually enrolled as of September 30, 2007, the FY 2007 annual performance
report overstated secondary school students enrolled in U.S. Government–supported
schools by 272 percent.

According to a CREATE official, no supporting documentation was available for results
prior to December 31, 2007, including the September 30, 2007 cutoff date for the FY
2007 annual performance report. Moreover, in its FY 2008 annual performance report,
the mission reported the corrected figure as of December 31, 2007 (26,086 secondary
students), as its actual results for the year ended September 30, 2008. Consequently,
the audit team could not determine the accuracy of this indicator value for FY 2008.

Despite this problem in compiling the FY2008 annual performance report, it should be
noted that when data that CREATE had collected in May 2008 were tested, they
generally agreed with enrollment figures maintained by head teachers and reported to
government officials. Moreover, CREATE had hired a new monitoring and evaluation
director midway through the program. However, CREATE’s May 2008 data summary
omitted four secondary schools from the island of Unguja. A CREATE official stated that
these schools were remote and transportation to visit and collect data was lacking.

Duplicated Results: The mission reported 56,703 learners enrolled in U.S. Government–
supported primary schools or equivalent nonschool settings in its FY 2008 annual
performance report. Of this number, 24,225 were attributable to CREATE, 12,970 to
RISE, and 15,097 to Roots & Shoots. The remainder was attributable to newer activities
that were not included in the scope of this audit.

Five schools in Zanzibar, however, were supported by interventions from both CREATE
and Roots & Shoots. These five schools were listed on both implementing partners’
respective summary sheets detailing the number of primary learners. Moreover, the
partners computed the indicator differently. CREATE, for example, counted the entire
enrollment in schools supported by its activities, whereas the Roots & Shoots summary
sheet only counted the number of students “impacted” by the environmental education
intervention. As a result, the 531 students for those five common schools included in
Roots & Shoots’ calculation were already included in the CREATE figure, causing the
indicator to be overstated.




9
 This corrected figure was reasonable given the audit team’s testing of May 2008 enrollment
data, which were corroborated by school enrollment registers.


                                                                                              11
According to the official who prepared the summary worksheet, no one in the mission
reviewed this important supporting document. Several of the reporting errors noted
above could have been detected easily if the summary worksheet used to prepare the
APR had been subjected to supervisory review. For example, it was immediately
apparent during the audit team’s review of the summary worksheet that the FY 2007
reported results for Roots & Shoots were exactly equal to the program’s targeted results,
making their accuracy suspect. In addition, training mission partners in data collection,
quality assurance, and reporting could enhance the quality of reported data.

Data Quality Not Checked During Site Visits – Another reason that problems with the
quality of performance measurement data were not identified was that mission officials
did not sufficiently check data quality during site visits. For example, a CREATE official
noted that USAID personnel would review CREATE’s PMP during site visits but would
not trace results back to supporting documentation such as enrollment data collected by
CREATE monitors. Measuring performance effectively, however, requires that USAID
officials pay attention to the data collection process to ensure that quality data are
collected and available to inform management decisions.               Consequently, both
Automated Directives System (ADS) 596.3.1.c and the Government Accountability
Office’s (GAO) Standards for Internal Control in the Federal Government cite the review
of performance measures as a key element of internal control. Similarly, ADS 202.3.6
states that monitoring the quality and timeliness of implementing partners’ outputs is a
major task of cognizant technical officers and strategic objective teams. It specifies that
problems in output quality provide an early warning that results may not be achieved as
planned and that early action in response to problems is essential in managing for
results.

According to the mission, data quality was not sufficiently checked during site visits
because of time constraints. Mission officials stated that these constraints were caused
in part by the introduction of the foreign assistance reform process and the
accompanying increase in reporting requirements, which took time away from the actual
implementation and monitoring of programs. Furthermore, the mission asserted that
there was a shortage of personnel assigned to the basic education program, which had
only one full-time dedicated official. The mission has recently added a new staff
member, whose responsibilities will include data quality, to the education team.

In addition, the audit team reviewed the mission order containing the mission’s
requirements for documenting site visits to activities. Although this mission order
includes a checklist for describing actions taken during visits, the checklist does not
specify that reported data should be verified against supporting documents nor does it
have a place for recording the results of such verification.

Imprecise Indicator Definitions – One characteristic of good performance indicators is
that they are unambiguous about what is being measured. Nonetheless, results
reported for the basic education program were not always reliable because indicator
definitions were imprecise. For example, the mission interpreted the indicator “number
of textbooks and other teaching and learning materials provided with USG assistance”
as referring only to the number of new designs produced and not to the actual number
distributed. For instance, if a program designed one new textbook and distributed
10,000 copies, all with U.S. Government assistance, the mission would assign a value of
one to the indicator. This methodology was used in both the FY 2007 and FY 2008



                                                                                        12
annual performance reports, as the mission reported actual results of 105 and 267,
respectively.

In discussions, mission officials referred the audit team to the indicator definition
published by the Office of the Director of U.S. Foreign Assistance as support for their
interpretation. For clarification, the audit team queried several persons associated with
development of the education indicators. One official agreed with the mission’s
interpretation, while two others, using the above example, said that 10,000 would be
consistent with the intent of the indicator. After consulting with a USAID Washington
advisor, the mission adopted this interpretation in setting its FY 2009 and FY 2010
targets for this indicator, with values of 25,000 and 15,000 for the respective periods.

Similarly, the three indicators measuring the number of learners enrolled in various
levels of U.S. Government–supported schools were also defined ambiguously and
subject to various interpretations. As described in the section “Duplicated Results,”
CREATE and Roots & Shoots interpreted this indicator differently. The interpretation
employed by CREATE, however, was least attributable to USAID efforts. For example,
the audit team visited two primary schools where CREATE had provided specialized
training to eight teachers at each school regarding disabled students. For these two
schools, CREATE reported results of 3,884 students, which represented the total
enrollment and was corroborated by the enrollment registers that the audit team
reviewed. CREATE statistics, however, indicated that only 74 disabled children were
enrolled at the two schools, and 435 total students were “handled” by the teachers who
underwent special needs training.

The same methodology was used at a secondary school in which CREATE support
included providing science camp opportunities for girls and training for science teachers.
At this school, CREATE included the entire enrollment of 2,498 in its indicator
calculation. In contrast, a CREATE quarterly report noted that a total of 650 students
throughout the entire country had attended science camps as of June 30, 2008.

Mission and USAID officials stated that the CREATE methodology was justified because
its interventions were designed to help end the isolation of disabled students and
ultimately benefit the entire school. For example, school committees composed
of teachers, parents, and community members were mobilized to identify and send
children with special needs to school; teachers were sensitized and trained to handle
classrooms composed of children with and without special needs; and other students
could also use infrastructure built to accommodate disabled students. Officials involved
in the development of the education indicators thought that the indicator should not
include all students in the school, but admitted that the issue was “potentially tricky,”
requiring explanation so that users understood what was done and ensuring consistent,
comparable reporting. Some clarity was also provided by the indicator definitions, which
state that the indicators were “intended to capture direct rather than indirect
beneficiaries,” which would argue against counting the entire enrollment. Of course, the
extra benefits of increased indicator precision need to be weighed against the
incremental cost of obtaining that information.

 Conclusion – Poor data quality inhibits all phases of effective performance management
by USAID officials, while reporting errors and imprecise indicator definitions negatively
impact external users’ understanding of Agency operations. This audit report makes the
following recommendations to help mitigate these adverse effects:


                                                                                       13
      Recommendation No. 4: We recommend that USAID/Tanzania develop policies
      and procedures to help ensure that (a) supervisory review is conducted of
      worksheets and other supporting documentation used to prepare the basic
      education section of the annual performance report and (b) evidence of that
      review is documented.

      Recommendation No. 5: We recommend that USAID/Tanzania (a) develop a
      schedule of monitoring visits to be conducted by members of the basic education
      team, with a specific set of data quality checks to be conducted by each
      individual traveler, and (b) revise Mission Order No. 10-3 and the Activity Visit
      Information Checklist to specify that selected reported data be verified against
      supporting documentation.

      Recommendation No. 6: We recommend that USAID/Tanzania (a) request
      guidance from the Office of the Director of U.S. Foreign Assistance on the
      interpretation and reporting of standard indicators applicable to its basic
      education program and (b) develop policies and procedures to help ensure that
      all basic education program implementing partners uniformly interpreted those
      indicators.

Performance Management Plan
Needs Updating and
Outcome-Oriented Indicators

Summary: Agency guidance requires that performance management plans include
adequate indicators to measure progress and be updated as programs evolve. The
mission’s basic education PMP, however, neither used indicators that adequately
measured program outcomes nor was it updated in a timely manner. Consequently, the
plan contained incorrect targets for more than 1 year and was not fully effective for
ensuring that the mission’s program had the maximum impact on basic education in
Tanzania.    Mission officials asserted that constraints introduced by the foreign
assistance reform process resulted in the selection of only output-oriented indicators and
also increased the amount of time necessary to update the plan.

The Government Performance and Results Act of 1993 sought to improve the
effectiveness of Federal programs by shifting Government accountability away from a
preoccupation with the activities that are undertaken to focusing instead on the
outcomes of those activities. Accordingly, ADS 203.3.2 states that USAID operating
units, such as its overseas missions, are responsible for establishing systems to
measure progress towards intended outcomes. 10 One of the primary tools the Agency
uses for this purpose is the performance management plan (PMP). To this end, PMPs
use performance indicators to observe progress toward those outcomes and to measure
actual results as compared to established targets, thereby enabling USAID managers to
monitor program performance and take timely corrective action, if necessary. Agency
guidance contains a number of provisions regarding the selection of performance
indicators and ensuring that PMPs contain up-to-date information.


10
     Per ADS 200.6, the term “outcome” is equivalent to “result.”


                                                                                          14
Notwithstanding this guidance, the audit found that USAID/Tanzania’s basic education
program PMP did not contain adequate performance indicators. In addition, the PMP
was not updated in a timely manner. The result of both conditions was that the PMP
was not fully effective for managing the basic education program to ensure that it had
the maximum impact. These conditions are discussed in further detail below.

Lack of Performance Indicators to Measure Outcomes – Despite the Agency’s focus
on managing for results, the mission’s PMP did not contain performance indicators that
measured progress toward intended program outcomes. For example, there were no
indicators that measured whether the program was actually improving primary and
secondary student performance in English, math, and sciences. On the contrary, the
only performance indicators for which the mission collected data measured program
outputs. 11 The lack of performance indicators that measured program outcomes
hindered the ability to monitor program effectiveness and take timely corrective action.
In addition, there was no means of ascertaining whether student participants had
exhibited “measurable learning gains” as envisioned in the mission’s November 2005
strategy statement.

According to the mission, USAID/Washington never formally approved the education
strategic objective following the introduction of the foreign assistance reform process.
As part of this process, the Office of the Director of U.S. Foreign Assistance collects
annual performance data from operating units using a set of standard indicators.
Mission officials stated that they used this set of standard indicators, which they referred
to as the “F framework,” to develop the PMP. These officials indicated that the F
framework did not contain “good impact indicators” suitable for measuring programmatic
impact or outcomes.

Although the F framework does contain a number of standard indicators that primarily
measure program outputs, the foreign assistance reform process is not intended to
supplant current USAID performance management practice, nor does it preclude the use
of custom indicators to measure program outcomes. Guidance published by the Office
of the Director of U.S. Foreign Assistance states that USAID collects data to measure
and manage the performance of its operating units, and also to tell an “Agency-level
performance story.” As a result, different indicators are needed to meet these two
purposes. Operating units use their own custom indicators to measure outcomes and
manage their performance, whereas the standard indicators promulgated in the F
framework are used to tell the Agency-level story. Furthermore, to continue providing
“robust results data,” the Office of the Director of U.S. Foreign Assistance “strongly
endorses continuation of operating units’ existing performance management systems
that track program results” and states that “these system tools, including USAID’s
Performance Management Plans, should continue.” 12




11
   Outputs are tangible, immediate, and intended products or consequences of an activity within
USAID’s control. Examples of outputs include people fed and personnel trained. In contrast,
outcomes are significant, intended, and measurable changes in the host country that will affect
the customer (in the case of education, students) directly or indirectly. Outcomes are typically
broader than outputs.
12
   FY08 Performance Plan and Report Guidance, Annex IV: Indicators – Standard and Custom.


                                                                                             15
Lack of Timely Updating – ADS 203.3.4.6 requires that PMPs be updated regularly
with new performance information as programs develop and evolve. The ADS states
that this is usually done as part of the annual portfolio review process. USAID/Tanzania
expanded upon this guidance in a mission order requiring that PMPs be reviewed
annually and updated by December 31. Furthermore, the mission order specified that
indicators and targets for the current reporting year must be identified no later than
January 31. Complying with this guidance, the annual performance management
schedule in the basic education program PMP called for the PMP to be updated by the
end of the first quarter of FY 2008.

These requirements, however, were not carried out. The FY 2007 and FY 2008 targets
in the annual performance report (APR) were not consistent with those in the PMP.
Mission officials confirmed that the APR targets were the correct ones for use in
performance management. The PMP was prepared in August 2007 and approved by
mission management in September 2007, while the FY 2007 APR was prepared in
November 2007, with the revised FY 2008 targets also being set around this time. The
PMP, however, was never updated. In the absence of an update, the PMP had incorrect
FY 2008 targets and no actual FY 2007 results for the entirety of FY 2008. As a result,
the cognizant technical officer for several major education activities said that the PMP
was not useful for performance management.

In addition, several partners and their associated programs were omitted from the PMP.
For example, the performance indicator reference sheets—a vital part of the PMP that
describes the sources and methods of data acquisition—contained no reference to the
Roots & Shoots environmental education program, even though the cooperative
agreement was signed in July 2006, activity occurred throughout 2007, and results were
reported in the FY2007 APR. While Roots & Shoots should have been included in the
PMP approved in September 2007, this omission could have been rectified in a timely
update.

Mission officials conceded that the PMP needed to be updated, and acknowledged that
“in general” the PMP should have been updated by December 31, 2007. According to
the mission, the ability to timely update the PMP was constrained by the foreign
assistance reform process. Constraints cited by mission officials included both the lack
of adequate and clear policy guidance and the increased number of indicators which
required broader consultations among stakeholders and in turn required more time to
update PMPs. Mission officials further stated that the mission order containing updating
timelines was based upon the “old ADS 203,” implying that the requirements contained
therein were themselves out of date and impractical given the introduction of the reform
process.

Nonetheless, the revised requirements of ADS 203 still specify that PMPs should be
updated as programs develop and evolve. Moreover, there is no requirement that the
PMP—an internal mission document—must restrict itself to the standard indicators
provided in the F framework and become a replica of the annual performance report. As
detailed above, different indicators are needed for the different purposes fulfilled by
USAID data collection. Accordingly, this audit makes the following recommendation.

   Recommendation No. 7: We recommend that USAID/Tanzania update the basic
   education program performance management plan and revise it to include
   performance indicators that measure intended program outcomes.


                                                                                     16
Basis for Targets
Not Documented
Summary: Contrary to USAID guidance requiring the documentation of significant
events, documentation supporting the establishment of targets in the mission’s basic
education performance management plan and annual performance report was not
available. According to a mission official, no documentation was turned over upon the
departure of the former team leader involved in formulating those targets. In addition,
the mission lacked explicit guidance requiring the documentation of performance targets
in official files. Inadequate documentation diminishes institutional memory and hinders
the effective management of Agency programs.

Good documentation is a critical component of internal control and performance
management. To this end, the GAO’s Standards for Internal Control in the Federal
Government indicates that all transactions and significant events need to be clearly
documented and that the documentation should be readily available. ADS 303.5.f
reflects this guidance by stating that cognizant technical officers (CTOs) are responsible
for “establishing and maintaining adequate CTO files,” because such files assist
successor CTOs in understanding the rationale behind past actions and also provide
adequate files for audit purposes. In addition, guidance published by the Office of the
Director of U.S. Foreign Assistance requires that operating units document target values
and the basis for their selection in units’ planning and reporting. This documentation
should include the source of information and the method of estimation or target setting.

Despite these requirements, documentation of the basis for targets in both the basic
education program performance management plan (PMP) and the annual performance
report was not available. The current CTO stated that she was not involved in preparing
the PMP, which was drafted by a former education team leader who has since left the
mission. The current official stated that the former team leader did not give her any
supporting documentation regarding the derivation of targets in the PMP. Furthermore,
the former team leader included revised FY 2008 targets in the FY 2007 annual
performance report. According to the current official, however, she did not have a
summary sheet or other documentation showing how those revised targets were
calculated, nor did the former team leader provide any such documentation prior to his
departure. In addition, the former team leader never provided any explanation as to why
the FY 2008 targets in the PMP varied widely from the revised FY 2008 targets in the FY
2007 annual performance report, even though the PMP was prepared in August 2007
and the FY 2007 annual performance report was prepared in November 2007. Table 2
presents these variances in the FY 2008 targets.




                                                                                       17
                  Table 2. Selected Performance Indicator Targets
    Indicator                          FY 2008 Revised Targets    FY 2008 Targets
                                       (per APR )                 (per PMP)
    Number of learners enrolled in
    U.S. Government–supported pre-              12,000                   26,610
    primary schools
    Number of learners enrolled in
    U.S. Government–supported                  100,000                  276,710
    primary schools
    Number of learners enrolled in
    U.S. Government–supported                  200,000                  127,012
    secondary schools

The current CTO stated that she did not receive any documentation concerning the
origins of either the revised targets in the annual performance report or the PMP
because the former team leader departed post on very short notice. As a result of this
quick departure, several mission officials stated that there was insufficient time for an
adequate turnover.

A contributing reason for the absence of documentation was the lack of explicit guidance
at the mission level requiring that the basis for selection of targets be documented in
official CTO files. For example, USAID/Tanzania’s mission order on performance
management, which contains a wide array of guidance on topics such as PMPs,
evaluations, and data quality assessments, does not address documentation of target
selection. The guidance on documentation published by the Office of the Director of
U.S. Foreign Assistance is merely one small item in a voluminous set of information and
can be easily overlooked. Moreover, this guidance is applicable only to the annual
performance report and not to PMPs as well.

Documentation supporting the establishment of PMP and annual report targets is
significant enough that it should be maintained in official files, since its absence impedes
institutional memory and inhibits effective performance management. For example, a
mission official could not explain why the revised FY 2008 targets were set at particular
levels. In addition, the contributions of various programs to the overall annual report
targets were not specified, and the audit team could not reconcile the total targets with
individual partners’ performance management plans. Consequently, the ability to
monitor progress toward achieving intended results is hindered. Accordingly, this audit
report makes the following recommendation.

   Recommendation No..8: We recommend that USAID/Tanzania develop policies
   and procedures to help ensure that the basis for establishing targets in both the
   performance management plan and the annual performance report is adequately
   documented in official activity files.




                                                                                         18
Provision for Executive Order
on Terrorist Financing Omitted
From Subawards

Summary: USAID regulations mandate that recipients of USAID assistance include in all
subawards a provision based on Executive Order 13224 designed to prevent the
financing of terrorist activities. However, two subawards for one education program did
not contain this required provision. In response, an implementing partner official stated
that the subrecipients were bound to follow all provisions in the partner’s agreement with
USAID, including antiterrorism provisions. Omission of the required provision may
increase the risk that USAID funds could be used to finance terrorism.

Part I, Section 13 of USAID’s Mandatory Standard Provisions for U.S., Nongovernmental
Recipients, found at ADS 303.4.2v, requires that all assistance instruments contain a
standard provision regarding the implementation of Executive Order 13224 on terrorist
financing. Consequently, USAID/Tanzania’s agreement with the Aga Khan Foundation
USA establishing the CREATE program contains the following section, titled
“Implementation of E.O. 13224 – Executive Order on Terrorist Financing”:

       The Recipient is reminded that U.S. Executive Orders and U.S. law
       prohibits transactions with, and the provision of resources and support to,
       individuals and organizations associated with terrorism. It is the legal
       responsibility of the recipient to ensure compliance with these Executive
       Orders and laws.            This provision must be included in all
       contracts/subawards issued under this agreement.

Notwithstanding this explicit language, two subawards issued to the Zanzibar Madrasa
Resource Center and the Teacher Advancement Programme for the CREATE program
did not contain the required provision. When asked why the required provisions were
omitted, an Aga Khan official stated that since the two subrecipients were sponsored by
Aga Khan, they were bound to follow all provisions in Aga Khan’s agreements with
USAID. The official added that when Aga Khan signed an agreement with USAID, it did
so on behalf of all of its projects.

Despite these assertions, the failure to include the required provisions in the subawards
is not in accordance with the unambiguous requirement cited above. Moreover, this
requirement is not merely a perfunctory administrative procedure. Among other benefits,
Executive Order 13224 heightens public awareness of individuals and entities linked to
terrorism, and promotes due diligence by private sector entities to avoid associations
with terrorists. These benefits are lost at the subrecipient level if the required provision
is omitted from subawards. As a result, this omission may increase the risk that USAID
funds are used to finance terrorism. Since the CREATE program has ended, this audit
report does not make a specific recommendation regarding these particular subawards.
However, this condition may exist in other subawards throughout USAID/Tanzania’s
range of activities. Given the utmost importance of denying financing for terrorists, this
audit report makes the following recommendations.




                                                                                         19
Recommendation No. 9: We recommend that USAID/Tanzania develop policies
and procedures to help ensure that the required provision concerning the
implementation of Executive Order 13224 is included in all agreements and
subawards.

Recommendation No. 10: We recommend that USAID/Tanzania determine
whether its recipients’ subawards contain the required provision concerning the
implementation of Executive Order 13224 and require that the recipients
incorporate the required provision into any subawards in which it was omitted.




                                                                                  20
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Tanzania concurred with all ten
recommendations and management decisions were reached on seven
recommendations.     An evaluation of the management comments for each
recommendation is shown below.

Recommendation no. 1 recommended that the mission develop a plan to increase
attendance and reduce the proportion of learning sites that regularly meet outside. In
response, the mission concurred with the intent of the recommendation and indicated
that it will work with the implementing partner to stress the importance of suitable
facilities for any newly developed community-managed learning centers. However, the
response did not address corrective actions regarding such learning centers already in
existence, nor did it affirmatively state that a plan will be developed to increase the
attendance of enrolled students. Consequently, a management decision has not been
reached on recommendation no. 1.

Recommendation no.2 recommended that the mission, in coordination with government
authorities, develop a plan to address the issues raised by government teachers. In
response, the mission concurred with the recommendation but stated that it could not
address compensation issues. We recognized the mission’s limitations in this regard,
which is why the recommendation stressed coordination with appropriate government
authorities. To achieve a management decision, the mission could propose a detailed
plan incorporating its contemplated activities in this area under the new education
strategy in development. Consequently, a management decision has not been reached
on recommendation no. 2.

Recommendation no. 3 recommended that the mission determine if the environmental
education program is consistent with the core objectives of the basic education program
and reprogram the remaining balance, if necessary. In response, the mission concurred
with the recommendation. However, pursuant to ADS 595.3.1.2, management decisions
cannot be reached on monetary recommendations, including recommendations for
putting funds to better use, until the audit action officer indicates agreement with the
proposed savings amount. Consequently, a management decision will be reached on
this recommendation when the mission determines the amount of funds to be
reprogrammed, if any.

Recommendation no. 4 recommended that the mission develop policies and procedures
to help ensure documented supervisory review of worksheets used to prepare the basic
education section of the annual performance report. In response, the mission indicated
that it will revise Mission Order 10-3 to help ensure this supervisory review. The mission
intends to complete this action by June 15, 2009. Accordingly, a management decision
has been reached on recommendation no. 4.

Recommendation no. 5 recommended that the mission develop a monitoring schedule
and revise Mission Order 10-3 to specify the verification of selected reported data. In



                                                                                       21
response, the mission developed a schedule of monitoring visits and indicated that it will
revise Mission Order 10-3 to include data quality procedures. The mission intends to
complete this action by June 15, 2009. Accordingly, a management decision has been
reached on recommendation no. 5.

Recommendation no. 6 recommended that the mission request guidance on indicator
interpretation and reporting, and develop policies and procedures to help ensure that
those indicators are uniformly interpreted. In response, the mission received guidance
from the Office of the Director of U.S. Foreign Assistance on indicator interpretation and
will revise Mission Order 10-3 to help ensure their uniform interpretation. The mission
intends to complete this action by June 15, 2009. Accordingly, a management decision
has been reached on recommendation no. 6.

Recommendation no. 7 recommended that the mission update the basic education
program performance management plan and revise it to include outcome-based
performance indicators. In response, the mission indicated that it is updating the basic
education program performance management plan. In addition, the mission stated that
it will identify outcome indicators in the new education strategy currently under
development. The mission intends to complete the revision of the basic education
program performance management plan by May 15, 2009, and to submit the new
education strategy to USAID/Washington by May 31, 2009. Accordingly, a management
decision has been reached on recommendation no. 7.

Recommendation no. 8 recommended that the mission develop policies and procedures
to help ensure that the basis for establishing performance targets is adequately
documented. In response, the mission indicated that it will revise Mission Order 10-3 to
implement the recommendation. The mission intends to complete this action by June
15, 2009. Accordingly, a management decision has been reached on recommendation
no. 8.

Recommendation no. 9 recommended that the mission develop policies and procedures
to help ensure that the required provision concerning the implementation of Executive
Order 13224 is included in all agreements and subawards. In response, the mission
stated that it will develop guidance to implement the recommendation. The mission
intends to complete this action by June 15, 2009. Accordingly, a management decision
has been reached on recommendation no. 9.

Recommendation no. 10 recommended that the mission determine whether its
recipients’ subawards contain the required provision concerning the implementation of
Executive Order 13224 and take appropriate corrective action. In response, the mission
stated that it will ask award recipients to provide certification that all standard provisions,
including Executive Order 13224, are included in subawards. Furthermore, the mission
will require recipients to correct any subawards found to be deficient. The mission
intends to complete this action by June 15, 2009. Accordingly, a management decision
has been reached on recommendation no. 10.

Management comments (without attachment) are included in their entirety in appendix II.




                                                                                            22
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this performance audit in accordance with
generally accepted Government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective, which was to determine whether
USAID/Tanzania’s basic education program achieved its intended results, as well as the
impact of the program. Audit fieldwork was conducted at USAID/Tanzania from
October 28 to November 13, 2008. The audit covered fiscal years (FYs) 2007 and 2008.

In planning and performing the audit, the audit team made a number of inquiries relating
to the respondents’ knowledge of actual or suspected fraud in the basic education
program. We also assessed management controls related to management review,
proper execution of transactions and events, and review of performance measures and
indicators. Specifically, we obtained an understanding of and evaluated (1) the FY 2007
and FY 2008 operational plans; (2) the basic education program performance
management plan, approved in September 2007; (3) the Federal Managers’ Financial
Integrity Act of 1982; (4) implementing partner agreements; (5) performance measures;
(6) actual performance results; (7) FY 2007 data quality assessments; (8) trip reports
prepared by mission officials; and (9) financial reports. We also conducted interviews
with key USAID/Tanzania officials and implementing partners. We conducted the audit
at USAID/Tanzania, the mainland regions of Mtwara and Lindi, and the Zanzibari islands
of Unguja and Pemba.

According to figures provided by the mission, the basic education program had total
obligations of $9.7 million in FYs 2006–2008, encompassing 11 agreements with nine
different implementing partners. Given the FY 2007–2008 scope of the audit, we
eliminated two agreements whose period of performance in either FY 2007 or FY 2008
we judged too brief to be included in the audit. From the remaining nine agreements
among eight partners, representing total obligations of $8.9 million, we selected the
CREATE, RISE, and Roots & Shoots initiatives for detailed testing. As of September 30,
2008, these three agreements had total obligations of $5.8 million.

Methodology
To answer the audit objective, we reviewed the FY 2007 and FY 2008 operational plans,
the FY 2007 and FY 2008 basic education sections of the annual Performance Plan and
Report, and the summary worksheets used to compile those reports.                  At
USAID/Tanzania, five indicators were reported upon by the mission in the FY 2008
annual report and included in the mission’s performance management plan. We audited
four of these indicators. We did not audit the remaining indicator because it was not
reported in the results section of both the FY 2007 and FY 2008 Performance Plan and
Reports.




                                                                                     23
                                                                             APPENDIX I


For these four indicators, we validated performance results and compared reported
information to substantiating documentation for three judgmentally selected
implementing partners. These partners were Education Development Center (RISE),
the Aga Khan Foundation (CREATE), and the Jane Goodall Institute (Roots & Shoots).
We selected RISE and CREATE because they were the two largest programs by dollar
amount, contributed the greatest proportion of reported results to the FY 2007 annual
report, and were geographically focused in predominantly Muslim areas. Roots &
Shoots was selected because it was the next largest program whose activity spanned
the scope of our audit.

In addition to the documents noted above, we reviewed the cooperative agreements,
quarterly progress reports, and work plans for the three selected programs. Those
reviews were complemented by interviews with mission officials, the RISE and CREATE
chiefs of party, the Roots & Shoots environmental education project director, other
officials from all three programs, and two officials from the Zanzibar Ministry of
Education and Vocational Training.

As part of our data testing and other substantive procedures, we visited the RISE and
CREATE headquarters in Zanzibar. We also visited 24 schools or informal instructional
sites and one training session associated with the RISE, CREATE, and Roots & Shoots
programs. These sites were located on the islands of Unguja and Pemba in Zanzibar,
and in the southern Tanzania districts of Mtwara and Lindi. At these sites, we performed
various procedures, such as reviewing enrollment registers and interviewing head
teachers and students.

Finally, we reviewed a wide range of laws, regulations, and other official guidance.
These included relevant portions of the Government Performance and Results Act of
1993, Executive Order 13224, and USAID’s Automated Directives System chapters 200,
201, 202, 203, 303, and 596. We also reviewed guidance published by the Office of the
Director of U.S. Foreign Assistance, and queried officials either in that office or who had
worked with it in devising the basic education standard indicators.




                                                                                        24
                                                                             APPENDIX II



MANAGEMENT COMMENTS



         DATE:        March 17, 2009

      REPLY TO
      ATTN OF:        Robert F. Cunnane, Mission Director /s/

       SUBJECT:       Mission Comments on Audit of USAID/Tanzania’s Basic
                      Education Program

               TO:     Nathan S. Lokos, Regional Inspector General/Pretoria

             REF:     Draft Report No. 4-650-09-00X-P

The Mission would like to thank RIG/Pretoria for this timely audit. The Mission is
currently in the process of designing an education strategy which will replace our current
activities in education, which end in mid fiscal year 2010. Several of the
recommendations, while not truly practicable to implement in the remaining time of the
current project, will be implemented in the new strategy to make a more efficient and
effective program. Additionally, the Mission fully expects several of the
recommendations to strengthen the implementation of our overall program, particularly
monitoring and data integrity. Stated below is our management decision for each
recommendation.

Recommendation No. 1: We recommend that USAID/Tanzania develop a plan,
with milestones, targets, and tracking mechanisms, to (a) reduce the proportion
of interactive radio instruction sites that normally meet outside; and (b) increase
the percentage of enrolled students attending interactive radio instruction.

Mission Response: Mission concurs with the intent of this recommendation as
USAID/Tanzania recognizes the importance of reducing the proportion of interactive
radio instruction (IRI) sites that meet outside in order to increase the percentage of
students attending IRI. We note, however, that the project is in its final year of
implementation. For the development of any new community-managed learning centers
under this award, USAID/Tanzania will work with the implementing partner to
incorporate outreach to communities on the importance of covered facilities to student
participation. Also, if IRI is continued under the new basic education strategy currently



                                                                                        25
                                                                            APPENDIX II


under design, USAID/Tanzania will work with all implementing partners to ensure the
vast majority of IRI sites do not meet outside.

Mission requests closure of this recommendation.

Recommendation No. 2: We recommend that USAID/Tanzania, in coordination
with the appropriate government authorities, develop a plan to address the
issues raised by government teachers that hinder the utilization of basic
education program resources.

Mission Response: Mission concurs with this recommendation. However,
USAID/Tanzania cannot address the primary issue of pay raised by government teachers
under the current program. As part of the new education strategy development process
currently underway USAID/Tanzania will look at issues raised by government teachers,
as well as other issues, in order to more effectively utilize education resources for the
greatest impact.

Mission requests closure of this recommendation.

Recommendation No. 3: We recommend that USAID/Tanzania determine
whether the Roots & Shoots environmental education program meets the core
objectives of the basic education program, and, if not, reprogram the
unexpended balance of $1,225,716 in a way that better aligns with the program’s
objectives.

Mission Response: Mission concurs with the recommendation. If the decision is Roots
& Shoots does not meet the core objective of the basic education program,
USAID/Tanzania will reprogram any unexpended balance in a way that better aligns with
the program's objectives. Mission expects decision to be made in the next 30 to 45 days.

Mission will request closure of the recommendation once the final decision is made.

Recommendation No. 4: We recommend that USAID/Tanzania develop policies
and procedures to help ensure that (a) supervisory review is conducted of
worksheets and ,other supporting documentation used to prepare the basic
education section of the annual performance report and (b) evidence of that
review is documented.

Mission Response: Mission concurs with this recommendation. Mission will issue
policy and procedures in a revision of Mission Order 10-3, Mission Performance
Monitoring and Evaluation Framework.

Mission will request closure when Mission Order is updated to incorporate new
procedures.




                                                                                       26
                                                                              APPENDIX II


 Recommendation No. 5: We recommend that USAID/Tanzania, (a) develop a
schedule of monitoring visits to be conducted by members of the basic education
team, with a specific set of data quality checks to be conducted by each
individual traveler, and (b) revise Mission Order No. 10-3 and the Activity Visit
Information Checklist to specify that selected reported data be verified against
supporting documentation.

Mission Response: Mission concurs with this recommendation and has developed a
schedule of monitoring visits. (Attachment A). Mission Order 10-3 and the Activity
Visit Information Checklist will be revised to include a revised data quality checklist.

Mission requests part (a) of this recommendation be closed. Mission will request
closure of part (b) when Mission Order 10-3 and Activity Visit Information Checklist
are revised.

Recommendation No. 6: We recommend that USAID/Tanzania, (a) request
guidance from the Office of the Director of U.S. Foreign Assistance on the
interpretation and reporting of standard indicators applicable to its basic
education program; and (b) develop policies and procedures to help ensure that
all basic education program implementing partners uniformly interpreted those
indicators.

Mission Response: Mission concurs with this recommendation. Part (a) has been
completed. USAID/Tanzania received guidance from the Office of the Director of
U.S. Foreign Assistance, Africa Bureau Office of Sustainable Development, and
EGAT Bureau Office of Education on the interpretation and reporting of standard
indicators applicable to its basic education program. Mission will revise Mission
Order No. 10-3 to address part (b) of the recommendation. Additionally, a new
mission-wide monitoring and evaluation contract will assist the basic education team
to develop procedures to ensure that all basic education program implementing
partners uniformly interpret the standard indicators.

Mission requests closure of part (a) of the recommendation. Mission will request
closure of part (b) when Mission Order 10-3 is revised.

Recommendation No. 7: We recommend that USAID/Tanzania update the basic
education program performance management plan and revise it to include
performance indicators that measure intended program outcomes.

Mission Response: Mission concurs with the intent of the recommendation.
USAID/Tanzania is in the process of updating its basic education program
performance management plan. As the audit points out, current education activities
lack baseline data or indicators to measure student learning. As most education
activities end by February 2010, the Mission believes it would not be cost effective or
efficient to come up with outcome indicators for the less than one year remaining in
the current project. The Education Team will identify outcome indicators in new



                                                                                           27
                                                                           APPENDIX II


strategy currently under development and will include performance indicators that
measure intended program outcomes in its new projects under this new education
strategy.

Mission will request closure of this recommendation when the new education strategy
is in place and the basic education performance monitoring plan (PMP) is updated.

Recommendation No .8: We recommend that USAID/Tanzania develop policies
and procedures to help ensure that the basis for establishing targets in both the
performance management plan and the annual performance report is
adequately documented in official activity files.

Mission Response: Mission concurs with this recommendation. This will also be
part of the revised Mission Order No. 10-3 – Mission Performance Monitoring and
Evaluation Framework.
.

Mission will request closure of this recommendation when Mission Order 10-3 is
revised.

Recommendation No. 9: We recommend that USAID/Tanzania develop policies
and procedures to help ensure that the required provision concerning the
implementation of Executive Order 13224 is included in all agreements and
subawards.

Mission Response: Mission concurs with the intent of the recommendation which is to
ensure the implementation of Executive Order 13224. One of the standard provisions for
US Non Governmental organizations is the applicability of 22 CFR 226 which states, in
part: “All provisions of 22 CFR Part 226 and all Standard Provisions attached to this
agreement are applicable to the recipient and to subrecipients which meet the definition
of "Recipient" in Part 226, unless a section specifically excludes a subrecipient from
coverage. The recipient shall assure that subrecipients have copies of all the attached
standard provisions.” (Highlights belong to the Mission). The contracting officer is the
only employee who can sign agreements and as a warranted contracting officer is aware
of the required clauses. However, on top of this, USAID/Tanzania shall also develop a
Mission Order or a Mission Notice to help ensure the required provision concerning an
implementation of Executive Order 13224 is included in all agreements and subawards.

Mission requests this recommendation be either removed from the report or closed.

Recommendation No. 10: We recommend that USAID/Tanzania determine
whether its recipients’ subawards contain the required provision concerning the
implementation of Executive Order 13224 and require that the recipients
incorporate the required provision into any subawards in which it was omitted.




                                                                                      28
                                                                           APPENDIX II


Mission Response: Mission concurs with this recommendation. A/COTRs of
agreements which contain subawards will be requested by the Contracting Officers to
contact recipients requesting recipients to provide certification that they have
included all standard provisions, including Executive Order 13224, in subawards.
A/COTRs, as directed by the Contracting Officer, will send letters to recipients the
week of March 16, 2009 and request them to respond within 10 working days.
Contracting Officer will require recipients to include the required provisions in
subawards missing the required provisions. The Mission will review the prime
awards to ensure that the substantial involvement clause of the prime awards includes
ADS 303.3.11(c)-2 as quoted: “Concurrence on the substantive provisions of the
subawards. Note that 22 CFR 226.25 already requires the recipient to obtain the
Agreement Officer’s prior approval for the subaward, transfer or contracting out of
any work under an award. This involvement is generally limited to approving work by
a third-party under the agreement. If USAID wishes to reserve any further approval
rights regarding subawards or contracts, it must clearly spell out USAID’s
involvement in the substantial involvement provision of the agreement”

Mission will request closure of this recommendation upon completion of the review
and correction of those subawards found to be deficient.




                                                                                        29
                                                                                     APPENDIX III




USAID/Tanzania Education
Indicators for FY 2007 and FY
2008
       Indicator Title              FY 2007         FY 2007            FY 2008          FY 2008
                                     Target         Reported            Target          Reported
1. Number of learners
enrolled in U.S.
Government–supported                 3,800             6,048            12,000           24,717
preprimary schools or
equivalent nonschool-
based settings
2. Number of learners
enrolled in U.S.
Government–supported                39,530           49,077 13         100,000          56,70313
primary schools or
equivalent nonschool-
based settings
3. Number of learners
enrolled in U.S.
Government–supported                18,145           97,41413          200,000          54,80213
secondary schools or
equivalent nonschool-
based settings
4. Number of textbooks
and other teaching and
learning materials provided          10014            10513,14           21014           26713,14
with U.S. Government
assistance
5. Number of
teachers/educators trained           350 15           99815,16           35015           1,755 16
with U.S. Government
support




13
   The audit was unable to confirm the validity and reliability of these data.
14
   The reported and targeted results for this indicator did not reflect number of materials provided.
15
   FY 2007 and FY 2008 targets were obtained from the Operating Plans for those years. FY
2007 results were obtained from the narrative section of the FY 2007 annual report. These
figures were not reported in the results section of either the FY 2007 or FY 2008 annual reports.
16
   Not audited.


                                                                                                    30
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
